                      ADVISORY MEMORANDUM REPORT
                  ON SBA’S FEDERAL AGENCIES’ CENTRALIZED
                    TRIAL BALANCE SYSTEM (FACTS) DATA


                             ADVISORY REPORT NO: 2-08

                                    MARCH 4, 2002




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of the Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416


                                                          ADVISORY MEMORANDUM
                                                                 REPORT
                                                        Issue Date: March 4, 2002
                                                        Number: 2-08



To:           Thomas A. Dumaresq, Chief Financial Officer


From:         Robert G. Seabrooks, Assistant Inspector General for Auditing

Subject:      Agreed-upon Procedures Report for FACTS Verification

        Attached is Cotton & Company LLP’s agreed-upon procedures report for verification of
SBA’s Federal Agencies’ Centralized Trial Balance System (FACTS) data. They noted findings
relating to a difference in reported amounts between SBA’s FACTS data and its audited financial
statements for two accounts, two line items, and the Account Groupings Worksheet (AGW)
FACTS NOTES. Additionally, several line items on the AGW Statement of Changes in Net
Position did not foot due to cell reference errors. We recommend that you take action to correct
these deficiencies and strengthen internal procedures to prevent future discrepancies.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7577.

Attachment
                          INDEPENDENT ACCOUNTANT’S REPORT ON
                              AGREED-UPON PROCEDURES FOR
                                  FACTS VERIFICATION


Inspector General
U.S. Small Business Administration


         Cotton & Company LLP performed the procedures enumerated in the attachment, which were
agreed to by the Department of the Treasury’s Financial Management Service (FMS), the General
Accounting Office (GAO), and the Office of Management and Budget (OMB), solely to assist you in
evaluating the Small Business Administration’s (SBA) management assertion that SBA compared
summarized Federal Agencies’ Centralized Trial-Balance System (FACTS I) data to related information
in its consolidated financial statements as of and for the year ended September 30, 2001.

         We performed this agreed-upon procedures engagement in accordance with standards established
by the American Institute of Certified Public Accountants. The sufficiency of these procedures is solely
the responsibility of specified report users. Consequently, we make no representation regarding the
sufficiency of the procedures described in the attachment either for the purpose for which this report was
requested or for any other purpose.

        We noted the following findings as a result of conducting the agreed-upon procedures:

        •       A difference in the reported amount of Standard General Ledger (SGL) Account 2920N,
                Contingent Liabilities.

        •       A difference in the reported amount of SGL Account 2180N, Liabilities for Loan
                Guarantees.

        •       Several line items on the Account Groupings Worksheet (AGW) Statement of Changes in
                Net Position did not foot because of cell reference errors.

        •       A difference in the reported amounts for gross cost and earned revenue line items by
                budget functional classification on the AGW Statement of Net Cost.

        •       A difference in the reported amounts for AGW FACTS I NOTES.
         We were not requested to and we did not perform an examination, the objective of which would
be the expression of an opinion on the FACTS I data described above. Accordingly, we do not express
such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

         This report is intended solely for the information and use of Treasury, GAO, and OMB and
should not be used by those who have not agreed to the procedures and taken responsibility for the
sufficiency of the procedures for their purposes.




March 4, 2002
Alexandria, Virginia
                                   ATTACHMENT
                        AGREED-UPON PROCEDURES AND FINDINGS
                                     FINAL AGW

Procedure                                      Differences Noted

   1. We traced amounts for split SGL          We identified a difference under Account 2920N,
      accounts in agency records to the        Contingent Liabilities. SBA’s record shows a balance
      AGW split account worksheet.             of $19,780,179.12, and the AGW split account
                                               worksheet shows a balance of $13,342,069.55. The
                                               difference is $6,438,109.57.

                                               SBA made an error in cross-walking the agency’s
                                               general ledger account to the standard general ledger
                                               account.

   2. We traced amounts for each line item     We identified a difference under Account 2180N,
      in the audited agency consolidated       Liabilities for Loan Guarantees. SBA’s record shows
      Balance Sheet and audited agency         a balance of $1,076,583,495.09, and the AGW column
      consolidated Statement of Changes in     shows a balance of $1,083,021,604.66. The difference
      Net Position to related amounts in the   is $6,438,109.57.
      AGW column titled "Amount from
      Agency Financial Statements"             SBA made an error in cross-walking the agency’s
      provided by the Chief Financial          general ledger account to the standard general ledger
      Officer (CFO).                           account.

   3. We traced amounts for each line item     Same as Step 2.
      on the AGW Balance Sheet and
      AGW Statement of Changes in Net
      Position for the column titled
      "Amount from Agency Financial
      Statements" to related amounts on the
      audited agency consolidated Balance
      Sheet and audited agency
      consolidated Statement of Changes in
      Net Position.
   4. We footed the AGW Balance Sheet          The line items of Total Financing Sources and Ending
      and AGW Statement of Changes in          Balances on the AGW Statement of Changes in Net
      Net Position column titled "Amount       Position column titled “Amount from Agency
      from Agency Financial Statements."       Financial Statements” do not foot. The difference is
      We footed and cross-footed the AGW       $103.42 for each line item.
      Balance Sheet and AGW Statement of
      Changes in Net Position column titled    The line items of Total Financing Sources and Ending
      "Difference."                            Balances on the AGW Statement of Changes in Net
                                               Position column titled “Difference” do not crossfoot.
                                               The difference is $101,363,121.83 for each line item.

                                               All differences are the result of cell reference errors in
                                               the Microsoft Excel worksheet used to prepare the
                                               AGW Statement of Changes in net Position. These
                                               improper cell references resulted in amounts being
                                                omitted from column and row calculations

Procedure                                       Differences Noted

   5. We read the explanation for               We noted no differences.
      differences identified by the CFO for
      the AGW Balance Sheet and AGW
      Statement of Changes in Net Position
      and listed on each AGW. We
      reviewed the explanation for
      consistency with supporting
      documentation and with results of
      audit procedures performed in
      conjunction with the current-year
      audit of related financial statements.

   6. If an amount labeled as "difference"      We noted no differences.
      was included on the Unreconciled
      Change in Net Position line at the
      bottom of the Statement of Changes
      in Net Position on the AGW, we read
      and compared the explanation for the
      difference identified by the CFO to
      supporting documentation for the
      difference.

   7. We traced amounts for each line item      We noted no differences. SBA does not have multiple
      for total gross cost, total earned        trading partners in the same department.
      revenue, and total net cost, net of
      intradepartmental amounts by Budget
      Functional Classification (BFC) from
      the audited agency consolidated
      financial statement footnote to
      amounts on the AGW Statement of
      Net Cost column titled "Amount from
      Agency Financial Statements"
      provided by the CFO.

   8. We traced amounts for each line for       We noted no differences. SBA does not have multiple
      total gross cost, total earned revenue,   trading partners in the same department.
      and total net cost, net of
      intradepartmental amounts by BFC on
      the AGW Statement of Net Cost for
      the column titled "Amount from
      Agency Financial Statements"
      provided by the CFO to related
      amounts on the audited agency
      consolidated financial statements
      footnote.
Procedure                                         Differences Noted

9. We traced amounts for each line item in        The amounts for Line Item 370, Commerce & Credit,
   the audited agency consolidated financial      in the audited agency consolidated financial statement
   statement footnote for gross cost, earned      footnote for gross cost and earned revenue for
   revenue, and net cost for interdepartmen-      interdepartmental amounts by BFC do not agree with
   tal amounts by BFC to related amounts on       related amounts on the AGW Statement of Net Cost
   the AGW Statement of Net Cost column           column provided by the CFO.
   titled "Amount from Agency Financial
   Statements" provided by the CFO.               Gross cost and earned revenue per the financial
                                                  statements is $2,932,746.40 and $78,207,415.67,
                                                  respectively. The AGW amounts are $116,812,475.51
                                                  and $80,432,934.58, respectively. The gross cost and
                                                  earned revenue differences are $113,879,729.11 and
                                                  $2,225,518.91, respectively.

                                                  SBA made data entry errors in its AGW Statement of
                                                  Net Cost submission.

10. We traced amounts for each line item for      Same as Step 9.
    gross cost, earned revenue, and net cost
    for interdepartmental amounts by BFC
    from the AGW Statement of Net Cost
    column titled "Amount from Agency
    Financial Statements" to amounts on the
    audited agency consolidated financial
    statement footnote provided by the CFO.

11. We traced amounts for each line item for      We noted no differences.
    total gross cost, total earned revenue, and
    total net cost from the AGW Statement of
    Net Cost column titled "Amount from
    Agency Financial Statements" to related
    amounts on the audited agency
    consolidated financial statement footnote
    provided by the CFO.

12. We traced the amounts for each line item      We noted no differences.
    for total gross cost, total earned revenue
    and total net cost from the audited agency
    consolidated financial statement footnote
    to the related amounts on the AGW
    Statement of Net Cost column titled
    "Amount from Agency Financial
    Statements" provided by the CFO.
Procedure                                        Differences Noted

13. We footed the AGW Statement of Net           We noted no differences.
    Cost column titled "Amount from Agency
    Financial Statements." We footed and
    crossfooted the AGW Statement of Net
    Cost column titled "Difference."

14. We read the explanation for differences      We noted no differences.
    identified by the CFO for the AGW
    Statement of Net Cost. We reviewed the
    explanation for consistency with
    supporting documentation and with
    results of audit procedures performed in
    conjunction with the audit of related
    financial statements.

15. We traced amounts for each respective        An amount of ($128,017,000) was omitted from
    line item on the AGW FACTS I NOTES           FACT I NOTE 18, “Loans Receivable and Loan
    Review Schedule from the agency              Guaranty Liabilities,” in the section titled “Total Loan
    consolidated financial statement footnotes   Guarantee Subsidy Expense” for the column titled
    or other supporting data to amounts on the   “Amount from Agency Source DATA.” The amount
    AGW FACTS I NOTES Review                     for Total Loan Guarantee Subsidy Expense” per the
    Schedule columns titled "Agency Source"      agency’s audited financial statements was
    and "Amount from Agency Source."             ($128,017,000); the amount on the AGW FACTS I
                                                 NOTES Review Schedule was zero.

                                                 SBA made a data entry error and neglected to enter
                                                 the proper “Total Loan Guarantee Subsidy Expense”
                                                 of ($128,017,000) on the AGW FACTS I NOTES
                                                 Review Schedule.

16. We footed the AGW FACTS I NOTES          We noted no differences.
    Review Schedule column titled "Amount
    from Agency Source," and crossfooted the
    AGW FACTS I NOTES Review
    Schedule column titled "Difference."

17. We read the explanation for differences      We noted no differences.
    identified by the CFO for the AGW
    FACTS I NOTES Review Schedule. We
    reviewed the explanation for consistency
    with supporting documentation and with
    results of audit procedures performed in
    conjunction with the audit of the related
    financial statements.
